No. 20-1570
IN THE SUPREME COURT OF THE UNITED STATES
HRB TAX GROUP, INC., ET AL.,
Petitioners,

v.
DEREK SNARR,

Respondent.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5(b), I certify that the accompanying
Respondent’s Brief in Opposition has been served on this date on all parties required
to be served, by electronic (email) delivery in accordance with the Court’s Order dated
April 15, 2020, all parties having agreed to such service for documents filed prior to
the Court’s ruling on the petition for a writ of certiorari. Service has been made upon
the following:
Archis A. Parasharami
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
aparasharami@mayerbrown.com
202-263-3000
Counsel of Record for Petitioners HRB Tax Group, Inc., et al.
Executed on July 12, 2021.

SCOTT L. NELSON
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
202-588-1000
Counsel of Record for Respondent

